IN THE SUPREME COURT OF THE UNITED STATES
___________
No. 19-199
___________
MANFREDO M. SALINAS, PETITIONER
v.
U.S. RAILROAD RETIREMENT BOARD, RESPONDENT
___________
MOTION FOR LEAVE TO DISPENSE WITH THE REQUIREMENT OF A JOINT
APPENDIX
___________
Pursuant to Rules 21 and 26.8 of this Court, petitioner Manfredo M. Salinas respectfully moves for leave to dispense with the requirement of a joint appendix in the abovecaptioned case. Counsel for respondent the United States Railroad Retirement Board has
authorized undersigned counsel to state that respondent concurs in this motion.
The question presented in this case is whether the Railroad Retirement Board’s denial of a request to reopen a prior benefits determination is a “final decision” subject to
judicial review under section 5(f) of the Railroad Unemployment Insurance Act, 45 U.S.C.
§ 355(f), and section 8 of the Railroad Retirement Act, 45 U.S.C. § 231g. This case thus
presents a pure question of law. The opinion of the court of appeals and the administrative
decisions below are reproduced in the appendix to the petition for certiorari. The parties
do not believe that any other portion of the record merits special attention that warrants
the preparation and expense of a joint appendix. To the extent that any citations to the
record are required, the parties agree that reference to the certified administrative record
filed in the court of appeals is appropriate. A separate joint appendix therefore would not
materially assist the Court’s consideration of this case. For the foregoing reasons, the motion to dispense with the requirement of a joint appendix should be granted.

2
Respectfully submitted,
/s/ Sarah M. Harris
SARAH M. HARRIS
Counsel of Record for Petitioner
WILLIAMS & CONNOLLY LLP
725 12th Street, N.W.
Washington, D.C. 20005
(202) 434-5000
sharris@wc.com
February 12, 2020

